U.S. Department of the Interior
Office of Inspector General




         SURVEY REPORT


STATE RECLAMATION AND REGULATORY
         GRANT PROGRAMS,
    OFFICE OF SURFACE MINING
  RECLAMATION AND ENFORCEMENT

            REPORT NO. 97-I-56
              OCTOBER 1996
                 United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                       Washington, D.C. 20240




TO:

FROM:


SUBJECT SUMMARY:               Final Survey Report for Your Information - “State Reclamation and
                               Regulatory Grant Programs, Office of Surface Mining Reclamation
                               and Enforcement” (No. 97-I-56)

Attached for your information is a copy of the subject final survey report. The objective of the audit
was to determine whether the Office of Surface Mining Reclamation and Enforcement was
administering the grant programs efficiently and effectively.

We were unable to determine whether Surface Mining grant programs were administered efficiently
and effectively because Surface Mining was still adjusting to a reorganization that occurred at the
end of fiscal year 1995 and the downsizing that was begun in fiscal year 1996. However, in a review
of regulatory grants, we found that 27 grants in 19 states had not been closed out in a timely manner
and that 12 states had unsupported drawdowns of grant funds totaling $11 million on 14 of 27 open
grants. We recommended that Surface Mining improve controls over the monitoring of regulatory
grant funds and the timely closure of grant agreements.

Surface Mining concurred with the report’s recommendation, which will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Acting Assistant Inspector General for Audits, at (202) 208-4252.



Attachment
                                                                  E-IN-OSM-003-96        I
           United States Department of the Interior
                      OFFICE OF THE INSPECTOR GENERAL




                             SURVEY REPORT

Memorandum

To:        Assistant Secretary for Land and Minerals Management


           Acting Assistant Inspector General for Audits

Subject:   Survey Report on State Reclamation and Regulatory Grant Programs,
           Office of Surface Mining Reclamation and Enforcement (N O. 97-I-56)


                              INTRODUCTION
This report presents the results of our survey of the state reclamation and regulatory
grant programs administered by the Office of Surface Mining Reclamation and
Enforcement. The review was requested by Surface Mining to ensure that its
streamlining efforts did not “decrease controls over grant award, monitoring,
closeout, and auditing functions.” Our objective was to determine whether Surface
Mining was administering the grant programs efficiently and effectively.

BACKGROUND

The Office of Surface Mining Reclamation and Enforcement was established by the
Surface Mining Control and Reclamation Act of 1977 to administer programs to
control the environmental effects of coal mining operations and to reclaim
abandoned mine lands. These programs are generally carried out by providing grants
to states and Indian tribes that develop and implement regulatory and reclamation
programs approved by Surface Mining.

The Act authorizes Surface Mining to award grants to eligible states and Indian
tribes in amounts not to exceed 50 percent of the cost of each state’s or tribe’s
regulatory program. The grant funds are used to operate regulatory programs that
include reviewing mine permit applications, inspecting current surface mining
operations, maintaining an enforcement program designed to correct violations of the
Act of 1977, designating lands as unsuitable for mining, administering bonding and
bond release programs, and administering small operator assistance programs. In
fiscal years 1993, 1994, and 1995, Surface Mining awarded regulatory program grants
totaling about $51.5 million each year to 23 states.

The Act also authorizes Surface Mining to award grants to eligible states and Indian
tribes to reclaim lands affected by past mining operations. Funding for the
reclamation grants is derived from reclamation fees paid by coal operators on coal
produced after September 30, 1977, and deposited into the Abandoned Mine
Reclamation Fund. Surface Mining awarded grants totaling $192.6 million, $205.8
million, and $162.5 million in fiscal years 1993, 1994, and 1995, respectively, to 23
states and 3 Indian tribes.

SCOPE OF SURVEY

Our survey was conducted at Surface Mining Headquarters in Washington, D. C.; the
Appalachian Regional Coordinating Center in Pittsburgh, Pennsylvania; the
Harrisburg Field Office in Harrisburg, Pennsylvania; and the Lexington Field Office
in Lexington, Kentucky. We interviewed Surface Mining personnel to determine how
regulatory and reclamation grants are initiated, processed, and closed out within the
Appalachian Region. In addition, we reviewed the status of reclamation and
regulatory grants that were open as of February 15, 1996. Because we did not
continue our audit beyond the survey phase, we limited our tests of records and
other procedures to those necessary to become familiar with program requirements
and administrative procedures and practices.

We also reviewed the Department of the Interior’s Annual Statement and Report
to the President and the Congress, required by the Federal Managers’ Financial
Integrity Act, for fiscal years 1993 through 1995 and determined that there were no
reported weaknesses related to the objective and scope of our survey.

PRIOR AUDIT COVERAGE

In the past 5 years, the General Accounting Office has not issued any reports
specifically related to Surface Mining’s regulatory or reclamation grants programs.
However, in July 1993, the Office of Inspector General issued the report “Selected
Grant Oversight Activities, Office of Surface Mining Reclamation and Enforcement”
(No. 93-1-1198), which stated that the State of Ohio charged salary and equipment
costs that were not specifically related to Abandoned Mine Land or Regulatory
Program grants. During our current review, we found that Surface Mining had
implemented the recommendation relating to the salary costs but that the
recommendation relating to motor vehicle costs was still under review.

                          RESULTS OF SURVEY
We found that Surface Mining was still adjusting to the reorganization that occurred
at the end of fiscal year 1995 and to the downsizing that was begun in fiscal year
1996. Personnel at the sites we visited were adapting to their new duties and

                                          2
                                                                                         I

responsibilities, as well as to different titles and position descriptions. Because of
this situation, we concluded that Surface Mining had not operated long enough
under its new organization to allow us to fully determine whether its current grant
administration was effective and efficient. Therefore, we did not extend our review
beyond the survey phase. Our survey did not identify any deficiencies regarding the
state reclamation grants; however, we did note that improvements could be made
regarding the monitoring of regulatory grant funds.

Our review identified 27 regulatory grants in 19 states that had not been closed out,
even though the grant periods had expired from 1 1/2 months to about 2 years ago,
as of our February 15, 1996, review. Surface Mining’s Federal Assistance Manual
requires that states submit expenditure reports semiannually for regulatory grants to
support their drawdowns of grant funds. However, we identified 12 states that had
unsupported drawdowns totaling $11.0 million on 14 of the 27 open regulatory grants
(see Appendix 1). For example, one state had not provided expenditure reports to
support any of its drawdowns totaling $443,864 for a regulatory grant whose activities
had been completed on September 30, 1994. The untimely reporting of expenditures
by states results in Surface Mining’s delaying the closeout of grants and the
subsequent return of grant funds to the U.S. Treasury. In addition, 23 of the 27
grants had outstanding balances totaling $6.4 million, which also should have been
returned to the U.S. Treasury (see Appendix 2).

During our survey, we also noted that the Harrisburg Field Office had instituted an
innovative and efficient approach for monitoring a state’s regulatory grant activity
that may be appropriate for use in other states. At this field office, information in
the database of the State of Pennsylvania’s automated Land Use Management
Information System could be read but not modified. With this type of access, the
Field Office could provide oversight of its grants by using the System to review the
State’s inspection and enforcement activity and also to plan and select mines for
Surface Mining’s oversight inspections. We believe that other Surface Mining field
offices could benefit from this approach, since states probably would not be reluctant
to provide Surface Mining inspectors access to their databases if they were assured
that the information in the database could not be modified.

Recommendation

We recommend that the Director, Office of Surface Mining Reclamation and
Enforcement, improve controls over the monitoring of regulatory grant funds to
ensure that expenditure reports are submitted by the states to support all drawdowns
of grant funds, completed grants are closed out in a timely manner, and unused
funds are returned promptly to the U.S. Treasury.
                                                                                       I

Office of Surface Mining Reclamation and Enforcement Response and
Office of Inspector General Reply

The September 30, 1996, response (Appendix 3) from the Acting Director, Office of
Surface Mining Reclamation and Enforcement, concurred with the recommendation.
Based on the response, we consider the recommendation resolved but not
implemented. Accordingly, the recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation.

Since the report’s recommendation is considered resolved, no further response to the
Office of Inspector General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the cooperation of Surface Mining personnel in the conduct of our
audit.
                          STATUS OF OPEN OFFICE OF SURFACE MINING REGULATORY GRANTS
                                        WITH COMPLETED GRANT PERIODS


                                                    Grant         Total        Total Costs    Unsupported     Balance      Completion
                                                                                                         l             2
        Grantee             Grant No.              Amount       Drawdowns       Reported      Drawdowns      Remaining       Date

Alabama                    GR593013                $1,204,372    $1,051,601       $493,643       $557,958      $152,771      9/30/95
Alaska                     GR493023                   196,428       187,792         75,731        112,061         8,636      6/30/95
Arkansas                   GR593053                   173,151       172,601         76,462         96,139           550      9/30/95
Colorado                   GR493083                 1,469,791     1,469,325      1,469,748              0           466     12/31/94
                           GR593083                 1,502,111              0              0             0     1,502,111     12/31/95
Illinois                   GR393173                 2,147,478     2,125,374      2,147,478              0        22,104      6/30/94
                           GR493173                 2,421,723     2,366,274      2,094,877        271,397        55,449      6/30/95
Indiana                    GR493183                 1,708,235     1,708,235      1,708,235              0             0      6/30/95
Iowa                       GR493193                   156,468       143,109         71,695         71,414        13,359      6/30/95
Kansas                     GR493203                   116,069        91,725         91,725              0        24,344      6/30/95
Kentucky                   GR393213                12,118,352    12,073,804     12,062,680         11,124        44,548     12/31/93
                           GR493213                12,204,711    11,966,696     11,963,476          3,220       238,015     12/31/94
                           GR593213                12,412,454    12,146,652     11,890,421        256,231       265,802     12/31/95
Maryland                   GR493243                   443,864       443,864              0        443,864             0      9/30/94
                           GR593243                   446,308       288,661        288,661              0       157,647      9/30/95
Missouri                   GR493293                   406,255       335,138        335,138              0        71,117      6/30/95
Montana                    GR493303                   741,636       741,636        741,636              0             0      6/30/95
New Mexico                 GR493353                   681,718       551,799        551,799              0       129,919      6/30/95
Ohio                       GR393393                 2,964,699     2,629,709      2,634,624              0       334,990      9/30/93
                           GR493393                 2,494,927     2,188,078      2,195,338              0       306,849      9/30/94
Oklahoma                   GR593403                   848,494       847,351        802,594         44,757         1,143      9/30/95
Pennsylvania               GR493423                10,512,400     9,045,355      9,271,675              0     1,467,045      9/30/94
                           GR593423                10,559,476     9,792,603      8,409,082      1,383,521       766,873      9/30/95
Texas                      GR593483                 1,195,607     1,195,607              0      1,195,607             0     11/30/95
Virginia                   GR493514                   225,846       202,312        202,312              0        23,534     8/31/95
                           GR593513                 3,061,835     2,861,718              0      2,861,718       200,117     12/31/95
West Virginia              GR593543                 7,469,870     6,850,783      3,126,825      3,723,958       619,087     10/31/95

        Totals                                    $89,884,278   $83,477,802    $72,705,855    $11,032,969    $6,406,476




1
    Total drawdowns minus total costs reported.
2
    Grant amount minus total drawdowns.
      SUMMARY OF OPEN REGULATORY GRANTS BY YEAR OF COMPLETION




      Calendar         No. of          Grant         Total      Total Costs Unsupported    Balance
                                                                                      l             2
       Year            Grants         Amount       Drawdowns     Reported   Drawdowns     Remaining

         1993              2        $15,083,051 $14,703,513 $14,697,304        $11.124      $379,538

        1994               6          29,273,171   27,238,692   27,047,715     447,084     2,034,479

        1995              19          45,528,056   41,535,597   30,960,836   10,574,761    3,992,459

         Totals           27        $89,884,278 $83,477,802 $72,705,855 $11,032,969 $6,406,476




1
    Total drawdowns minus total costs reported.
2
    Grant amount minus total drawdowns.
                                                                     APPENDIX 3
                                                                     Page 1 of 2

               United States Department of the Interior
                            OFFICE OF SURFACE MINING
                             Reclamation and Enforcement
                                Washington, D.C. 20240




Memorandum

To:          Acting

From:        Acting

Subject:     Response to Draft Survey Report on State Reclamation and Regulatory
             Grant Programs, Office of Surface Mining Reclamation and Enforcement
             (Assignment No. E-IN-OSM-O03-96)

This is in response to your August 30, 1996 memorandum and draft survey report
entitled “State Reclamation and Regulatory Grant Programs, Office of Surface Mining
Reclamation and Enforcement (Assignment No. E-IN-OSM-003-96). We appreciate
the opportunity to review the draft survey and to provide our comments.

We have completed our review of the draft survey and concur with its findings and
recommendations. Our specific plans for implementing your recommendations are
explained in the attachment. The Assistant Director for Finance and Administration,
and the Assistant Director for Program Support will be the responsible officials for
carrying out the implementation plan.

If you have any questions concerning our response, please contact George Stone,
Audit Coordinator, Office of Strategic Planning and Budget, at (202) 208-7840.


Attachment
                                                                                          I


                                                                       APPENDIX 3
                                                                       Page 2 of 2



        Planned Action on Recommendation in OIG Draft Survey Report-
      State Reclamation and Regulatory Grant Programs (E-IN-OSM-003-96)

The table below reflects the actions planned to implement the recommendations and
a projected target date for completion of those actions. The officials responsible for
plan implementation are the Assistant Director for Finance and Administration, and
the Assistant Director for Program Support.


                                                               Projected       Action
       Recommendation                  Planned Action          Completion      Official
                                                                  Date

 Improve controls over the      Modify the “Past Due Grant     03/31/97       AD/FA
 monitoring of regulatory       Close-Out” tracking report
 grant funds to ensure that     to provide for system
 expenditure and closeout       generated explanations
 reports are submitted in a     regarding the status of
 timely manner, which will      open grants.
 ensure that unused funds
 are returned promptly to the   Send the tracking report       03/31/97       AD/FA
 U.S. Treasury.                 to the Regional
                                Coordinating Centers
                                periodically (monthly or
                                quarterly) for update.

                                Schedule an annual review      03/31/97       AD/PS
                                of the status of open
                                grants as part of oversight
                                of the grants program.




                                         8
                                                          APPENDIX 4


        STATUS OF AUDIT REPORT RECOMMENDATION


Finding/Recommendation
        Reference           Status            Action Required

         1               Resolved; not   No further response to the
                         implemented.    Office of Inspector General is
                                         required. The recommendation
                                         will be referred to the Assistant
                                         Secretary for Policy,
                                         Management and Budget for
                                         tracking of implementation.
                                                                                  I


               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:



                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1550 Wilson Boulevard                                  1-800-424-5081 or
Suite 402                                              (703) 235-9399
Arlington, Virginia 22210

                                                       TDD for hearing impaired
                                                       (703) 235-9403 or
                                                       1-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7279 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
